No.
IN THE
SUPREME COURT OF THE UNITED STATES

CHARLES G. KINNEY,
Plaintiff-Appellant,
v.
PHILIP S. GUTIERREZ,
U.S. District Court,
Defendant-Appellee,
On Petition For Writ Of Certiorari To The Ninth Circuit Court of
Appeals (19-15565)
US District Court No. 3H9-mc-80021-JD
Northern District of California,
San Francisco (Bivens claim)

CERTIFICATE OF SERVICE of the petition for
WRIT OF CERTIORARI, APPENDIX, AND CERTIFICATE OF
COMPLIANCE

CHARLES KINNEY
Petitioner in pro se
5826 Presley Way
Oakland, CA 94618
charleskinney@hotmail.com
Telephone: 510-654-5133
Fax: 510-594-0883

CERTIFICATE OF SERVICE
I am a resident of the U.S. I am over the age of eighteen years and not a party to
the within action. My business address is 5826 Presley Way, Oakland, CA 94618.
On the date noted below, I mailed true copies of the PETITION and APPENDIX,
CERTIFICATE OF COMPLIANCE and this CERTIFICATE, enclosed in a sealed
envelope with postage fully prepaid thereon in a US Post Office mail box at Oakland, CA,
addressed to:
Clerk, United States District Court
Central District of California
350 West 1st Street, Ctrm 6A, 6th FI.
Los Angeles, California 90012-4565

Defendant P. S. Gutierrez
(no appearance or attorney)

Clerk, United States District Court
Northern District of California
450 Golden Gate Ave., 16th FI
San Francisco, CA 94102

District Court (Judge Donato)

Clerk, United States Court of Appeals
For the Ninth Circuit
95 Seventh St.
P.O. Box 193939
San Francisco, CA 94119-3939

Ninth Circuit

I declare under penalty of perjury under the laws of the State of California that the
foregoing is true and correct and that this declaration was executed in Oakland, CA.

Date: Sept. 2^, 2019

__s/__Chris Kinney.

1

